OFFICE OF INSPECTOR GENERAL



FOLLOW-UP AUDIT OF USAID
MISSION FOR UKRAINE,
BELARUS AND MOLDOVA’S
MANAGEMENT OF U.S.
PERSONAL SERVICES
CONTRACTORS
AUDIT REPORT NO. 8-121-06-003-P
July 10, 2006




FRANKFURT, GERMANY 

         Office of Inspector General




     July 10, 2006


     MEMORANDUM

     TO: 	                USAID Mission for Ukraine, Belarus and Moldova Mission Director, Earl Gast

     FROM: 	              Regional Inspector General, Frankfurt, Gerard M. Custer /s/


     SUBJECT: 	 Follow-up Audit of USAID Mission for Ukraine, Belarus and Moldova’s
                Management of U.S. Personal Services Contractors


     This memorandum transmits our final report on the subject audit. In finalizing the report, we
     considered your comments on the draft report and have included them in their entirety in
     Appendix II. We have also adjusted some of the report language in response to comments
     from our headquarters staff. The report contains no recommendations.

     I want to express my sincere appreciation for the cooperation and courtesies extended to
     my staff during this audit.



     .




U.S. Agency for International Development
PSC 115, Box 1066
APO, AE 09213
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 2 


Audit Objective................................................................................................................ 2 


          Did USAID/WNIS take corrective actions to justify final
          action on the recommendations from Audit Report
          No. B-121-04-003-P, dated March 17, 2004?


Audit Findings ................................................................................................................. 3 


Evaluation of Management Comments ......................................................................... 6 


Appendix I – Scope and Methodology .......................................................................... 7 


Appendix II – Management Comments ......................................................................... 8 

SUMMARY OF RESULTS

This follow-up audit was conducted to determine if the USAID Mission for Ukraine,
Belarus and Moldova (USAID/WNIS) took appropriate corrective actions on
Recommendation Nos. 1, 2 and 3 of the Audit of USAID Mission for Ukraine, Belarus
and Moldova’s Management of U.S. Personal Services Contractors [Audit Report No. B
121-04-003-P, dated March 17, 2004] (see page 2).

In response to the March 2004 audit, USAID/WNIS developed new procedures to correct
three weaknesses related to the Mission’s management of U.S. Personal Services
Contractors (USPSCs). In two areas, the Mission’s new procedures proved to be
effective, justifying final action on the recommendations. Specifically, the Mission:

   	 developed a checklist that documented its consideration of alternative hiring
      options before seeking offshore USPSCs for new positions (see page 3); and

   	 developed appropriate language for its job announcements that clearly explain
      the requirement for signed salary statements (see page 4).

In the third area─compliance with USAID’s policy relating to USPSC annual leave─
USAID/WNIS did not initially implement effective actions to justify final action on the
recommendation.      Although the Mission developed detailed guidance requiring
documentation of exceptional circumstances before contractors could obtain lump-sum
payments for annual leave (or leave at the end of a contract period), the Mission did not
adequately implement the new guidance. Since the new policy’s adoption, the Mission
has approved, in three out of seven cases, lump-sum payment or end-of-contract leave
without obtaining the documentation required by the new guidance. As a result, the
Mission was still unable to demonstrate its compliance with USAID’s policy regarding
USPSC leave. Furthermore, because of processing errors, the Mission overpaid the
USPSCs for their accrued leave by $6,700 (see pages 3 and 4).

In its comments to our report, USAID/WNIS concurred with our findings regarding
Recommendations Nos. 1 and 3. Regarding Recommendation No. 2, however, the
Mission contended that the scheduling of USPSC annual leave on a quarterly basis was
sufficient to meet USAID's requirement that leave be scheduled "early in the contract
period", and that all Mission approvals for contractor payments or end-of-contract leave
had been justified. We do not believe that the quarterly scheduling of leave fully satisfies
the intent of USAID’s requirement for early leave planning. For example, if USPSCs
defer submitting leave plans until the final quarters of the contract, there will be a greater
risk that leave balances will not be exhausted during the contract period (see p. 6).

Despite this difference of opinion, the Mission agreed to strengthen its policy regarding
the approval of lump-sum payments and leave taken at the end of the contract period.
According to a new Mission directive, USPSCs will develop leave plans covering all
leave to be earned during the contract period. Requests for lump-sum payments or
leave during the final 30 days of the contract period will generally be denied except in
rare cases that meet the strict requirements of USAID policy. This action, combined with
the Mission's aggressive actions to collect lump-sum overpayments, satisfies our
concerns regarding the Mission's implementation of Recommendation No. 2 (see p. 6).


                                                                                            1
BACKGROUND

In March 2004, USAID’s Office of Inspector General issued an audit report focused on
the management of USPSC employees at USAID/WNIS. In general, the report found
that USAID/WNIS’ requirements for USPSCs were in accordance with USAID policies
and procedures. However, the report identified reportable weaknesses in three areas:

      USAID policy requires the Mission to consider using locally hired USPSCs or
       Foreign Service Nationals as cost-effective alternatives to the more expensive
       internationally-recruited USPSCs.        However, USAID/WNIS could not
       demonstrate that it had always followed this guidance.

      USAID policy requires contractors to use annual leave throughout the contract
       period. USPSCs can receive a lump-sum payment for unused leave, or
       extended leave at the end of a contract period only if exceptional job
       requirements otherwise precluded the use of such leave. Despite this guidance,
       USAID/WNIS routinely paid contractors lump-sums for unused annual leave but
       could not demonstrate that exceptional job requirements had precluded the
       contractor’s use of this leave.

      According to USAID policy, a signed Standard Form (SF) 171 or Optional Form
       (OF) 612 must be submitted by each USPSC applicant. USAID requires these
       specific forms because each form contains a penalty clause for any false
       statements, which deters applicants from inflating their salary histories.
       USAID/WNIS did not always obtain and maintain a signed copy of one of these
       required forms.

The OIG issued three recommendations to correct these deficiencies. USAID/WNIS
concurred with all three recommendations and agreed to implement improved
procedures to address our concerns.

AUDIT OBJECTIVE
This follow-up audit was included in the Office of Inspector General's fiscal year 2006
Annual Plan and was conducted to promote improvements in the way USAID manages
its human capital.

The audit was conducted to answer the following question:

   •	 Did USAID/WNIS take corrective actions to justify final action on the
      recommendations from Audit Report No. B-121-04-003-P dated
      March 17, 2004?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                     2
AUDIT FINDINGS

USAID/WNIS has taken appropriate actions to justify final action on all three audit
recommendations as discussed in detail below.

Recommendation No. 1: We recommended that USAID/WNIS adopt procedures that
will document its compliance with USAID policy guidance relating to the Mission’s non-
direct hire workforce.

In response to Recommendation No. 1, the Mission developed a checklist to document
its consideration of all hiring options before seeking an internationally-recruited USPSC
for a new position. The checklist requires staff to evaluate each new position to
determine if it could be filled by a more cost-effective alternative: a U.S. Direct Hire
employee, a Foreign Service National employee or a locally recruited U.S. citizen.
Mission staff were required to explain why each position could not be filled by one of
these less-expensive personnel options.

Since establishing the checklist in 2004, the Mission has used it for three hiring actions
to fill new positions; the checklist was not used in two cases where positions already
held by internationally-recruited USPSCs were re-advertised. However, since personnel
requirements can change from time to time, Mission officials agreed to expand the use
of the checklist to all advertised positions. These actions by the Mission were judged to
be sufficient to constitute final action to address the recommendation.

Recommendation No. 2: We recommended that the Mission Director, USAID/WNIS,
establish procedures to ensure compliance with USAID policies and USPSC contract
provisions related to annual leave lump-sum payments.

In response to Recommendation No. 2, USAID/WNIS established clear guidance that
complied with USAID’s USPSC leave policies. Specifically, this guidance required that,
before payments or end-of-contract leave would be granted, USPSCs had to present:

      evidence that the leave was scheduled early in the tour of duty, taking into
       consideration project requirements, employee preference and other factors;

      documentation (including copies of emails and/or leave request forms) between
       the employee and his or her supervisor that substantiates that the leave was
       canceled due to exceptional or emergency work demands;

      documentation that supports a good-faith attempt on the part of the employee to
       reschedule the annual leave for another date before the termination of the
       contract; and

      a written request from the employee describing the events which precluded the
       employee from taking his or her leave balance. This request must be approved
       by the Contracting Officer and have the concurrence of the Mission Director.




                                                                                        3
However, of the seven USPSC terminations processed since the policy took effect, the
Mission had followed the policy in only four instances. In three of these cases, the
employees received no lump-sum payments. In the fourth case, the employee received
a lump-sum payment after providing the required evidence of a plan to use the leave and
documentation of the unforeseen job requirements that had disrupted the plan and
prevented the leave from being taken.

In the three remaining cases, however, USPSCs received either lump-sum payments or
end-of-contract leave without fulfilling the requirements to submit suitable supporting
documentation. Specifically, the USPSCs were not required to present evidence that:

      the employees had scheduled leave early in the contract period;

      exceptional or emergency job requirements had disrupted established leave
       plans; or

      the employees had made good-faith efforts to reschedule leave before contract
       termination.

The payments and leave granted by the Mission resulted in $21,145 of additional
contract costs. Since the payments lacked the required documentation, the Mission
could not demonstrate that these incurred costs were in compliance with USAID’s
policies regarding USPSC annual leave.

Furthermore, due to processing errors by Mission staff who were unfamiliar with leave
payment procedures at the time, some payments exceeded USAID’s ceiling on such
payments while other payments violated restrictions pertaining to salary differentials.
Specifically:

   	 USAID’s standard contract language states that lump-sum payments cannot be
      made for more than the number of leave days earned in a 12-month period. In
      two cases, USAID/WNIS made lump-sum payments in excess of this ceiling; the
      overpayments totaled about $5,100.

   	 USAID policy states that a person earning a salary differential at an overseas
      post cannot receive this differential while in the U.S. One USPSC who was
      granted extended leave at the end of the contract took this leave in the U.S. but
      continued to receive the differential. This resulted in an overpayment of about
      $1,600.

In response to our follow-on work, USAID/WNIS (1) initiated appropriate action to
confirm and collect the overpayments and (2) agreed to develop new procedures to
ensure the appropriate implementation of USAID policy. Among other things, the new
procedures remind USPSC employees of their responsibilities to plan their leave usage
in advance, and made it clear that (1) lump-sum payments would rarely be granted and
(2) leave should not be scheduled for the final 30 days of the contract period. These
new measures, combined with earlier guidance, were judged to be sufficient to justify
final action on the recommendation. As a result, no further recommendations will be
issued in connection with this matter.




                                                                                     4
Recommendation No. 3: We recommended that USAID/WNIS obtain and maintain a
certified statement of past salary history for all USPSC contractors in the format
mandated by USAID policy.

In response to Recommendation No. 3, the Mission agreed to include in each USPSC
job solicitation a clear statement that a signed SF 171 or OF 612 must be submitted or
the applicant would not be considered for employment.

Since March 2004, USAID/WNIS included appropriate language regarding signed forms
in four of the Mission’s five USPSC solicitations; according to Mission officials, the
language was inadvertently left out the remaining solicitation. There was no material
impact from the error, as the candidates for each job announcement submitted signed
OF 612 or SF 171 forms. The actions taken by the Mission were judged to be sufficient
to justify final action on the recommendation.




                                                                                    5
EVALUATION OF
MANAGEMENT COMMENTS
In response to our draft report, USAID/WNIS fully concurred with our findings regarding
Recommendations Nos. 1 and 3.

Regarding Recommendation No. 2, the Mission stated that, in their opinion,
management’s approval of lump-sum payments or end-of-contract leave had been fully
justified in all cases. According to the Mission, the quarterly scheduling of USPSC
annual leave met USAID's requirement that leave be scheduled "early in the contract
period". The Mission further stated that it did not see the managerial utility of having
USPSCs developing comprehensive leave plans covering the entire contract period.

As noted in the report, we identified three cases where USPSCs had not presented
evidence in accordance with Mission policy indicating that:

   	 employees had scheduled leave early in the contract period;

   	 exceptional or emergency job requirements had disrupted leave plans; or

   	 employees made good-faith efforts to reschedule leave before contract
      termination.

We do not feel that the Mission’s procedures requiring leave to be scheduled on a
quarterly basis fully satisfies the intent of USAID’s requirement for USPSCs to schedule
leave early in the contract period. This contract provision is specifically designed to
discourage the accumulation of large leave balances and thus alleviate the need for
either lump-sum payments or end-of-contract leave. If USPSCs wait until the final
quarters of a contract to develop leave plans as the Mission policy currently allows, there
is increased risk that leave balances will not be exhausted during the contract period.
This risk is especially high when contractors carry large accumulated leave balances into
the final quarters of a contract, as the Mission’s USPSCs often did.

Despite this difference of opinion over USAID’s requirement for early leave planning, the
Mission agreed to strengthen its policy regarding approvals of lump-sum payments and
leave scheduled at the end of the contract period. According to a new Mission directive,
USPSCs are required to develop leave plans covering all leave to be earned during the
contract period. The directive notes that requests for lump-sum payments or leave
during the final 30 days of the contract period will generally be denied except in rare
cases that meet the strict requirements of USAID policy. This action, combined with the
Mission's aggressive actions to collect lump-sum overpayments, satisfies our concerns
regarding the Mission's implementation of Recommendation No. 2. Consequently, we
are not issuing any further recommendations in connection with this matter.

Mission comments have been included in their entirety in Appendix II of this report.




                                                                                         6
                                                                            APPENDIX I 





SCOPE AND METHODOLOGY 

Scope
The Regional Inspector General in Frankfurt conducted this follow-up audit of
USAID/WNIS’ management of U.S. personal services contractors in accordance with
generally accepted government auditing standards.

In planning and performing this limited scope audit, we assessed the effectiveness of the
Mission’s new procedures on USPSC hiring and termination actions during the time
frame period from March 17, 2004 through March 30, 2006. The audit fieldwork was
conducted from April 3, 2006 through April 21, 2006 at the USAID/WINS Mission in Kiev,
Ukraine.


Methodology
In planning and performing our audit work, we obtained and reviewed the Audit of
USAID Mission for Ukraine, Belarus and Moldova’s’ Management of U.S. Personal
Services Contractors, dated March 17, 2004. We accomplished the audit objective by
performing the following tasks:

   •	 reviewing applicable Mission guidance issued in response to our March 2004
      audit report;

   •	 interviewing appropriate Mission officials regarding implementation of the new
      guidance;

   •	 collecting and evaluating data related to five USPSC hiring actions that had
      occurred since that date; and

   •	 reviewing and evaluating payment and leave records for USPSCs who had left
      the Mission since March 2004.




                                                                                       7
                                                                      APPENDIX II 




MANAGEMENT COMMENTS




June 6, 2006

Gerald M. Custer,
Regional Inspector General
Frankfurt, Germany

Subject: Comments to Draft Report of the Follow-up Audit of USAID
Mission for Ukraine, Belarus and Moldova’s Management of U.S.
Personal Services Contractors.

Dear Mr. Custer:

Thank you for allowing us the opportunity to review the subject draft report and
for the professional and cooperative way in which the follow-up audit was
conducted. We fully concur with the auditor regarding conclusions related to
recommendations No. 1 and No. 3.
Regarding recommendation No. 2, I would like to clarify that management felt
fully justified in approving lump-sum payments or end-of-contract leave usage in
all the cases reviewed by the auditor.
The Mission’s standard management practice regarding annual leave scheduling
and approval includes the preparation of projected quarterly leave schedules
covering all employees (i.e. USDH, USPSC, FSN and TCN) within each
operational unit in the Mission. This practice satisfies our managerial need for
orderly and timely scheduling of employee earned leave and, in our view, meets
the documentary evidence that employees schedule their leave “early in the
contract period.” Changes to the quarterly leave plan due to personal or job
requirements are common practice and are often done verbally or via e-mail.
This management practice also ensures that any resulting leave changes get
reflected in the leave schedule of the following quarter.
However, in the case of USPSC employees, the auditor indicated that
documentary expectation was for a single leave plan covering the entire contract
period (not just quarterly periods) of the employee in question. The Mission does
not share such a narrow interpretation of this requirement nor do we see the
managerial utility of such a plan given that work and employee circumstances


                                                                              8

                                                                  APPENDIX II 



tend to vary widely over an extended period of time. In addition we have
strengthened Mission policy regarding documentary requirements for the
scheduling and/or payment of unused annual leave balances at the end of the
employee’s contract period, as further detailed in the attached memorandum
dated May 15, 2006.


Sincerely,



Earl Gast, /s/
Mission Director




                                                                              9
                                                                     APPENDIX II 





             Action Memorandum to the Mission Director

Date:        May 15, 2006

Subject:    US Personal Service Contractor (USPSC) Compensation for
Annual Leave

Reference:   Action Memorandum to the Mission Director dated 2/9/04


Purpose:

To further clarify the Mission policy established in the above referenced
memorandum regarding lump-sum payments or end of contract leave granted to
USPSC employees for annual leave remaining at the termination of their
contracts and ensure that mission application of this policy complies with the
standard provisions of the USPSC contracts, AAPD 5-10 and AIDAR Appendix
D.

Background:

In response to recommendations in RIG’s audit report No. B-121-04-003-P
related to Mission’s management of U.S. Personal Service Contractors, in above
referenced memorandum (copy attached), Mission established guidelines and
documentation requirements for the approval of lump-sum payments for unused
annual leave balances remaining at the time of contract termination of a USPSC.

During audit follow-up work conducted by RIG in April 2006 on the same subject,
the auditor called the Mission’s attention to several lump-sum payments made to
various USPSC employees for unused annual leave during 2004 and 2005.
Although Mission management felt justified in each and every case approved, the
RIG auditor found that the documentation on file did not adequately complied
with the requirement regarding evidence that the contractor developed “a
vacation leave schedule early in his/her tour of duty.” The Mission’s
management practice of maintaining quarterly vacation schedules for all
employee categories was not deemed compliant by the auditor as the quarterly
schedules did not cover the entire contract period of the USPSC. Mission
believes that this practice is adequate management of leave balances for its staff
and satisfies the letter and spirit of the governing policy. Nevertheless, Mission
has agreed to strengthen its policy in this respect as follows:



                                                                               10
                                                                    APPENDIX II 



All USPSC and TCN employees must develop an annual leave plan. The leave
plan should include all leave that one anticipates earning during the period
covered by the USPSC/TCN’s contract. When scheduling leave, staff should
consider that:

1. As a general rule, no lump-sum payments will be made for any unused annual
leave upon contract termination. Exceptions will be rare and must be approved
by the Contracting Officer in accordance with the strict standards found in AAPD
05-10.

2. Annual leave not taken before the final 30 days of the contract will nearly
always be forfeited. Exceptions will be rare and must be approved by the
Contracting Officer in accordance with the strict standards found in AAPD 05
10.




                                                                                 11
